            AUDIT REPORT 

        INFORMATION SYSTEM CONTROLS 

AT THE NATIONAL MUSEUM OF AMERICAN HISTORY, 

              BEHRING CENTER 


                Number A-04-02

                 June 16,2004
                                      SUMMARY 


The Office of the Inspector General audited information system controls at the National
Museum of ~ m e r i c a nHistory, Behring Center (NMAH). The purpose of the audit was to
evaluate NMAH information system controls for system access, server and database
configurations, and network security.

Two points were considered throughout our audit: (1) Adequate security of information
and the systems that process it is a fundamental management responsibility. (2)
Management must, of necessity strike a reasonable balance between information
technology security and operational capability because some controls impede operations.

Smithsonian policy, requires managers to establish adequate controls to maintain
accountability for the custody and use of resources and to provide reasonable assurance
that assets are safeguarded against loss or unauthorized use. Overall, NMAH did have
system backup security controls in place. However, we determined that NMAH system
security configurations and safeguards were inadequate and that the risk to system access
and data integrity was high. During our audit, NMAH management reviewed system
accounts, made changes, and began reviewing configuration deficiencies identified during
the audit.

We made recommendations to improve systems security and general system controls at
NMAH. The recommendations included performing reviews of system configurations;
removing unnecessary accounts; developing plans to address identified system security
weaknesses; and establishing policies and minimum technical configuration guidance for
server operating systems, web server applications, and databases. Management agreed
with the recommendations and planned actions are responsive to the recommendations.
                                                TABLE OF CONTENTS



1. Introduction .....................................................................................................................................1 


       A. Purpose ................................................................................................................................. 1 


        B. Scope and Methodology .........................................................................................................1 


       C. Background.............................................................................................................................1 


2 . Results of Audit ................................................................................................................................2 


        Review of NMAH Information System Security .......................................................................2 


Appendix A. Policies and Industry Standards....................................................................................7 


Appendix B. Glossary...........................................................................................................................9 


Appendix C. Management Comments .............................................................................................10 


                                            ABBREVIATIONS AND ACRONYMS 


                   NIST                             National Institute of Standards and Technology
                   NMAH                             National Museum of American History. Behring Center
                   SANS                             System. Audit. Network. Security Institute
                                   INTRODUCTION

A. Purvose

The purpose of the audit was to evaluate NMAH information system controls for system
access, server and database configurations,and network security.

B. Scope and Methodolow

The audit was conducted from November 14,2003, to May 7,2004, in accordance with
generally accepted government auditing standards. The audit methodology consisted of
the following:

       Identifying and reviewing applicable Institution policies and procedures related to
       system general controls, computer system security, and integrity of computer
       resources.
       Comparing NMAH system security settingswith industry and Institution
       standards.
       Evaluating controls meant to safeguard and protect networks.
       Assessing the adequacyof controls meant to prevent and detect unauthorized
       activities.
       Utilizing guidance issued by the National Institute of Standards and Technology
       (NIST),National SecurityAgency, Oracle Corporation, and Microsoft
       Corporation relating to system security configuration.

Our review also included interviewswith NMAH technology staff, through which we
gained an understanding of the practices employed concerning system configuration,
network security, and system access.

C. Background

The NMAH opened to the public in January 1964as the Museum of History and
Technology. NMAH's basic mission is the collection, care, and study of objects that
reflect the experience of the American people.
                                         RESULTS OF AUDIT

Review of NMAH Information System Securitv

NMAH systems security can be strengthened to prevent unauthorized access. Specifically,
opportunities exist to strengthen controls over network access, server operating systems,
databases, and web server applications security configurations and settings. This
condition exists because of a lack of specific system configuration standards and
inadequate NMAH information technology staff resources to address system security
weaknesses. As a result, NMAH information systems are vulnerable to unauthorized
access and the integrity of its data could be compromised.

Network Access
We scanned external and internal network ports and services of NMAH servers as part of
access control testing. Internally, we also scanned and performed limited penetration
testing of NMAH client workstations. In addition, we assessed the server operating
systems, databases, and web server applications against industry guidance and
configuration standards.' From these assessments, we determined that configurations
should be modified to meet minimum industry recommended security configuration
standards. Also, we performed scans of 13 NMAH servers. Externally, we were
unsuccessful in identifying the specific ports and services at the time we conducted our
tests for these servers. Our internal network scans, however, did find some open ports
with available services that could be vulnerable. Our scans of client workstations
discovered vulnerabilities. One in particular allowed access to sensitive data such as
personnel, marketing, and sponsor fundraising information.

Analysis of the 13 internally scanned servers revealed 21 security holes and 47 security
warnings.3 The major ports and services include NetBIOS, Simple Network Management
Protocol, OpenSSL, and File Transfer Protocol. The NetBIOS service, for example, is
recognized as a common Windows operating system weakness. We were able to identify
eight of nine Windows servers which had enabled the NetBIOS protoc01.~According to
industry standards, enabling default Microsoft Windows NetBIOS over certain networks
permits the server storage drives to be easily shared and accessible. Sharing drives across
networks is not recommended, unless necessary, because it can permit unauthorized and
undetected access to information. In addition, according to the System, Audit, Network,
Security Institute (SANS), NetBIOS and Simple Network Management Protocol are two
of the top 20 most critical Internet security vulnerabilities because they disclose
information such as server services, account names, and passwords.

Through our access control testing we were successful in exploiting the NetBIOS
vulnerability for seven of the eight NMAH Windows servers and numerous work stations.
Of the seven Windows servers, we were able to obtain 29 system administrative password

' Appendix A contains a summary of policies and industry security standards used during this audit.
  The 13 NMAH servers consist of 9 Windows and 4 Netware operating system servers. We were unable
io discover vulnerabilities with the Netware servers and concentrated on the Windows servers.
'A security hole is a security weakness that permits a computer intruder to get instant access to read any file
or walk through the file system. A security warning is a weakness that can be exploited in conjunction with
a vulnerability.
  NetBIOS is part of the Windows networking technology and represents a large share of common network
level exploits that includes the sharing of files across a network.
accounts. Once we had obtained these accounts, we were able, without authorization, to
gain access to the server and the files and directories that contained the Collection
Management Database and an NMAH financial system database. A review of the
password files determined that some of the passwords were not in compliance with
Institution complexity policies, which require the passwords to be at least eight characters
and contain a combination of alphanumeric characters and a special character5. For
example, one particular system backup account provided access to most of NMAH
servers by itself. Also, the default administrative account was often not renamed as
required by Institution policy and industry guidance.

Sewer Operating Systems
We compared server operating system and database configurations and settings against
industry standards and guidance. We concentrated on six of the nine Windows servers.
We encountered technical difficulties in executing scripts against the remaining three
Windows server^.^ NMAH had not enabled some of the Windows servers as new
technology file systems (NTFS) for three of its servers (AHBFMS, MIMSYWEB, and
NMAH-312688). Instead, the servers were using the file allocation table (FAT).

The new technology file system offers extensive security permissions and auditing features
that can be customized at the file and directory levels, as opposed to the file allocation
table, which does not permit full utilization of these advanced security features. As a
result, we were unable to fully assess the operating system configurations. Windows new
technology file system is the file system recommended by the National Institute Standards
and Technology (NIST) for Windows operating systems because of the additional security
settings it offers. In addition, our assessments revealed that operating system patches and
hot fixes were not up to date.




 Special characters are key board characters such as !a#$%/'&*().
 A script is a file that is executed on a computer that will automatically gather certain settings and
configurations. These data are further analyzed for comparison to industry system security standards.


                                                     3

The following table summarizes our assessment of the NMAH Windows operating
systems.




             Passed and NA         30%           2 3%             30%            30%            31O
                                                                                                  h                 2 1%
                       Failed      70%           77%              70%            70%            69Oh                79%
 Tests Failed by Risk
 Levels
      High (b)                        8            8               8               a              7                  8
    Medium (c)                       11           15              12              12             13                  15
      Low (d)                       -
                                    30            31
                                                  A               29
                                                                  -               -
                                                                                  29             -
                                                                                                 28                 -
                                                                                                                    32
 Total                              49            54              49              49             48                  55
 a.   Non-Applicable are tests that were not applicable to the type of server beingreviewed.
 b.   High (Excessive Risk) Risk is high enough to cause a business disruption if exploited.
 c.   Medium (Moderate Risk) Risk in conjunction with another event couldcause a business disruption ifsxploited,
 d.   Low (Low Risk) Risk can cause operational annoyance, or inefficiencies if exploited.



Database Applications
We determined that two NMAH Oracle databases contained numerous administrative
default installation accounts, passwords, user profiles, and assignments.' These
administrative accounts provide the access and ability to modify and delete database
information. According to industry standards and Institution policy, default accounts or
passwords should be removed, renamed, or changed. Also, some accounts were unknown
to NMAH technology staff, and other accounts represented users who have left the
Institution but whose accounts and system access were still enabled.

Web Server Applications
We compared web server application configurations with industry standards. NMAH
uses both Internet Information Systems and Apache for their web server applications.'
We determined that three NMAH web servers had significant weaknesses: they were not
configured and updated to the most current versions; they contained questionable
installed protocols such as NetBIOS; they contained default installation files and
directories; and they contained default accounts with anonymous access privileges. NIST

I
  These databases are used to support the NMAH collection system (MIMSY) and the NMAH financial
management system (FMSWEB).
8
  Web server applications are used for computers that are used for internet purposes.


                                                              4
recommends that default installation files, directories, accounts, and anonymous access
privileges be removed. Finally, the current configuration of these three web servers allows
unauthorized users the ability to obtain file and directory locations.

We believe NMAH system security weaknesses result from the lack of Institution-specific
technical baseline configuration standards and guidance, as well as from the lack of
resources (staff and budgetary) necessary to support the NMAH's technology needs. The
Institution has not issued policies or minimum technical configuration guidance for
servers and databases for most versions of Windows operating systems, web server
applications, and databases. In addition, within the last two years NMAH information
technology administrative staff was reduced and reassigned to the Office of the Chief
Information Officer. The staff position was not replaced, and according to NMAH
information technology staff, the responsibilities for this position are still needed to
maintain NMAH systems up to date and configured correctly. Also, some of the system
weaknesses were known and have not been addressed due to budgetary constraints. For
example, a security remediation plan for the NMAH Collection Management System
server is specifically part of the annual security budget request to the Office of
Management and Budget. The remediation plan outlines the system weaknesses and
recommended solutions.

According to industry security standards, inadequate access controls diminish the
reliability of computerized data and increase the risk of destruction or inappropriate
disclosure of data. With the weaknesses our audit identified, NMAH information system
resources are vulnerable to network and server business disruptions; potential data
integrity compromises for its major databases; compromises of personnel, marketing,
fundraising and donor information; and loss of web services.

Conclusion

Based upon our system configuration and network analyses, we believe that NMAH can
improve system security by introducing an assessment process into its information
technology administration. Implementing security assessments and performing periodic
reviews can identify risks, thereby limiting vulnerabilities and preventing system
compromises.

Recommendations

We recommended that the Director, National Museum of American History, Behring
Center ensure that his staff:

    1. 	 Perform periodic reviews of server security configurations to ensure patches and
       hot fixes are up to date for operating systems, web server applications, and
       databases.

    2. 	 Establish a process to ensure that unnecessary accounts are removed expeditiously
       from system resources.

    3. 	 Perform regular network scans of NMAH networks to identify and close 

       unnecessary ports and services. 

   4. 	 Reiterate the need for all NMAH users to comply with the Institution's computer
        password policy.

   5. 	 Develop a plan to begin addressing identified security weaknesses for its major
       systems.

Management Comments

NMAH management concurred with all of our recommendations. NMAH staff plans to
upgrade its operating systems to the Office of the Chief Information Officer baseline
during FY 2004. By June 30,2004, NMAH plans on completing and removing
unnecessary system accounts. NMAH plans to acquire tools and train staff to perform
periodic network scans. NMAH plans to issue a semiannual email notification to all
NMAH staff regarding strong password compliance. NMAH staff will develop a plan of
action and milestone report for the Collection Information System.

Office of the Inspector General Response

We believe that the Director's planned actions, if implemented, are responsive to the
recommendations.

Recommendation

We recommended that the Chief Information Officer establish policies and minimum
technical configuration guidance for server operating systems, web server applications,
and databases.

Management Comments

The Chief Information Officer concurred with our recommendation. The Chief
Information Officer stated that he has developed and issued configuration standards and
guidance for Windows 2000 servers. At the time of the audit, no other Windows
operating system complied with the Smithsonian's Technical Reference Model. The
Institution does not currently have specific configuration guidelines for web servers using
Apache or for database servers but plans on completing configuration guidelines by the
end of fiscal year 2004.

Office of the Inspector General Response

We believe the Chief Information Officer's planned actions, if implemented, are
responsive to the recommendations.
Appendix A. Policies and Industry Standards

We evaluated NMAH systems security during November 14,2003, through May 7,2004.
We used Smithsonian Directives as well as industry guidance and standards from the
NIST, General Accounting Office, National Security Agency, and Microsoft Corporation.
The evaluation included a review of server operating system configurations, web server
application configurations, databases, user accounts, network ports, and vulnerable
services.

Smithsonian Directive 115, Management Controls, revised July 23,1996, lists standards
that apply to all Institution units. The directive requires managers to take systematic and
proactive steps to develop and implement appropriate, cost-effective management
controls. These controls should provide reasonable assurance that assets are safeguarded
against waste, loss, unauthorized use, and misappropriation.

Smithsonian Directive 931, Use of Computers Q Networks, August 5,2002, provides
Institution policy on computer safeguards to protect Smithsonian equipment and data.
Users are required to use safeguards that include having a password with at least eight
alphabetic numeric, and special characters. Passwords must not be found in a dictionary,
easily guessed, or left in writing in the user's office. Also, passwords should be changed
every 90 days and not reused.

National Security Agency, Guide to the Secure Configuration and Administration of
Oracle9i Database Sewer, September 30,2003, Version 1.2, describes how to securely
configure and administer the Oracle9i Enterprise Edition Database Server. This guide
must be supplemented with The Center for Internet Security's Oracle Database Security
Benchmark v1.O.

The Center for Internet Security, Oracle Database Security Benchmark vl.1 provides high-
level recommendations to secure an Oracle database with a baseline configuration to
protect the system from the common "out of the box" vulnerabilities. The security of the
Oracle database is a function of the security of the network and operating system that
hosts the database. The guidance recommends that all relevant security patches be
installed.

General Accounting Office, Financial Information Systems Control Audit Manual, January
1999, provides guidance in evaluating computer-related controls. The guidance describes
access controls to provide reasonable assurance that computer resources are protected
against unauthorized modifications, disclosure, loss, or impairment. Such controls
include physical controls, such as locking computer rooms to limit access. Inadequate
access controls diminish the reliability of computerized data and increase the risk of
destruction or inappropriate disclosure of data.

National Security Agency, Research Study by Trusted Systems Services, Windows NT
Security Guidelines Considerations Q Guidelinesfor Securely Configuring Windows NT in
Multiple Environments, 1999, provides guidelines for countering known attacks on
Windows NT installations that expose or modify user data maliciously. The goal is to
make Windows NT as secure as reasonably and practically possible. Implicit in the
Appendix A. Policies and Industry Standards (Continued)

guidelines is the understanding that recommendations must be both effective against
certain threats and also practical. A balance is necessary between security and operations
because some controls impede operational capability.

National Security Agency, Guide to SecuringMicrosoft Windows 2000 File and Disk
Resources, April 19,2001, recommends that the new technology file system be used in
order to achieve the highest level of security. Under Windows 2000, only new technology
file system supports discretionary access control to the directories and files. New
technology file system volumes provide secure and auditable access to the files.
Therefore, any file allocation table partitions should be converted to new technology file
system.

National Security Agency, Guide to SecuringMicrosoft Windows NT Networks, 200 1,
identifies a variety of available Windows NT 4.0 security mechanisms and describes
measures for their implementation. The guide provides a solid security foundation for
any Windows NT 4.0 network by offering step-by-step instructions on how to utilize the
operating system's built-in security features.

NIST Special Publication 800- 18, Guidefor Developing Security Plans for Information
Technology Systems, December 1998, states that the objective of system security planning
is to improve the protection of information technology resources. All federal systems
have some level of sensitivity and require protection as part of good management
practice. According to NIST, system security plans should document the protection of
the system. Additionally, the completion of system security plans is a requirement of the
Office of Management and Budget Circular A- 130, Management of Federal Information
Resources, Appendix 111, Security of Federal Automated Information Resources, and Public
Law 100-235, Computer Security Act of 1987. The purpose of the security plan is to
provide an overview of the security requirements of the system and describe the controls
in place for meeting those requirements. The system security plan also delineates the
responsibilities and expected behavior of all individuals who access the system.

NIST Guidelines on Securing Public Web Sewers, Special Publication 800-44, September
2002, provides guidelines on securing both Apache and Internet Information Services web
server applications. The guidelines include installing permanent fixes (often called
patches, hot fixes, service packs, or updates) and removing or disabling unnecessary
services and applications. Ideally, a Web server should be on a dedicated, single-purpose
host. Many operating systems are configured by default to provide a wider range of
services and applications than required by a Web server; therefore, a Web administrator
should configure the operating system to remove or disable unneeded services. Some
common examples of services that should usually be disabled would include: Windows
network basic inputloutput system (NetBIOS), if not required, file transfer protocol;
telnet; simple management transfer protocol; and software development tools.

Microsoft White Paper, Securing Windows NT Installation, 1997, states that the default,
out-of-the-box NT configuration is unsecured, and discusses various security issues with
respect to configuring all Windows NT operating system products.
Appendix B. Glossary

Application. A complete, self-contained program that performs a specific function
directly for the user. This is in contrast to system software such as the operating system
which exists to support application programs.

Directory. A computer system used to organize files on the basis of specific information.

Hot Fixes. Hot fixes and security patches are intended for enterprise implementations
and provide an extra level of security for mission-critical software systems. Specifically
security patches eliminate vulnerabilities by mitigating recognized exploits.

NetBIOS. NetBIOS is part of the Windows networking technology that facilitates the
sharing of files and computer resources across a network.

Operating System. The software which handles the interface to hardware, schedules
tasks, allocates storage, and presents a default interface to the user when no application
program is running.

Security Hole. A security hole is a security weakness that permits a computer intruder to
get access to files or walk through the file system. A security warning is a weakness that
can be exploited in conjunction with vulnerability.

Server. A computer which provides some service for other computers connected to it via
a network. For example, a file server is a computer and storage device dedicated to
storing files and sharing those files over a network. A print server is a computer that
manages one or more printers, and a network server is a computer that manages network
traffic. A database server is a computer system that processes database queries.

Simple Network Management Protocol. Simple Network Management Protocol
(SNMP) is the protocol governing network management and the monitoring of network
devices and their functions.

System Administrator. An individual responsible for maintaining a computer system,
including a local-area network. Typical duties include: adding and configuring new
workstations, setting up user accounts, installing system-wide software, and performing
procedures to prevent the spread of viruses.

Protocol. When data is being transmitted between two or more devices something needs
to govern the controls that keep this data intact. A formal description of message formats
and the rules two computers must follow to exchange those messages. Protocols can
describe low-level details of machine-to-machine interfaces or high-level exchanges
between application programs.

Web server. A server application running on a computer which sends out web pages in
response to requests from remote network or Internet users.
Appendix C. Management Comments




       Date May 21, 20M
         To Tholnas D. Biair, Inspector General

       From Brent (;(miss, Director National Museum of Amcricm IIistmy

         Cc Sheila Burke, C 0 0
            Dennis Shaw,CIO
            William IIoyt*IG
            Dennis Dckinson, N       MH

I     Subjwt NSAH Information Systems Crmtmlr Audit

              This IT systems controis ndn expands our knowledge of the extent to which our systems
                                                                                                            I
              and ele~mmicdata at at risk. 'VIkl e d a great deal bxcltn rhe FY2W3 rivk assesmcnr
              of otrr Colkctians Information System (CIS]. The FY2e04 remediationtasks estahiished
              by that assessment art to begin short@and WjU address some dthe mues raised in yotie
              report. Hans to rebuikl ~ r v r r isn o i l r datacentex after OClO cc~wlidatiu:~
                                                                                             will resolve
              otlrers.

              As nnen~onedhyour ~umm'ixy,NMAH F1' srati began addressing mnte of the
              vulnerabilit~esas souti as t h y were discwered. But it will take time to cxantinc h e .
              contents 6311 reparrs that were delivered; we need m idenrifv which weakr~essesare
              urgefit, which are "f.alse-pmicive",arxl whether the remedy d any wiU ncgativeiy hipact
              the operation tafcrit;icoIsystems or appiicicneior~.

              At tkk titne, we & the facts ~             [he~repOSt
                                                 R X Y1x1P     ~    and    tespratd to each
              reeort~merdatio~ as Paliorvs:

                 Perform prriodie reviews of s e n e security caniiguratians to ensure patches and
                 hot fixes BE up.fa-d;tte far opat"mgryetern, web sentea apphcations, and
                  databases.
                  + S m e r security aperatingsystem ad antivirus codlgurations an: periodicaUy
                     assessed, The &dl  2664 Sajasser wwnn attack .urn@thwarrcd by c~perating,    system
                    upla~xsapplied to 1 1olrr Windows serveps in March 2834.
                  3 Our preference is to inlpletncnc ~ f t w a r etcxh t(t auttrmatually mnaktain system
                    and security cdtguntiom, Many nf the r ~ m l repiaced   y       desklop YCs re~eivc
                    system patches frwn the 6 e I O SUS server, Our plan is fur all NMAEI systems to
Appendix C. Management Comments (continued)




                    !X   wrtfigured this way m the tairure.
                P ?JMAIIplat%to up&rde the operatingbystem of,fs$vetal servers identified in the
                    t~qmrtto WlC3 baselines ducing FY20e4.

            r   Establish a process to ensure unnecessary amounts are nmoved expeditiously
                frinn system temurres
                i Work hns iptgun to remove or &sable unneccbsdry sgnyeropraring system und
                    dacabaclc a ~ c o u n ~ .
                "r Iheexisringprocesswill be reviewed arid up9ated to confornt to SI guiddikles by
                    June330, 2034.

            a   Perfom regular scans of XMAW networks to iefentify and close ~ ~ ~ e c c u s poxts ary
                and setvices
                k N'MM will need to acquire to& atld trairt/hire technical staff tu conduet rhis
                   rnsk on a quarterly hasis,
                2 Guidance IS needed ftotlt the OClO S E L G ~ I o&ce
                                                                 F ~ ~ ~ un what ports and services arc
                   deem& umecewaty. '%is must be cms-checkedagalrrst the NMAH portfdio of
                   appiicad@mto d e ~ r m i mif thtre are k m l confiicts.

                Reiteratethe 4for all NMAH users to comply with the I n s t i ~ d mrmpuw
                passwad policy
                &   NMAH will Lwue h.annunl "sttong password" e-mail corr~pliancenotificafionsto
                   3taff.
                r* Every KMAH tisea is required to comply with the fastitution's pa~wordand
                   cmnpurer/nenvork usage pol~cks.The p;lsswordpiicy is s~ificaltyrefcrencd in
                   Part 8 of rhe SKMAH NeWork~AppkcarrenU e r Account applicnuon rhar must
                   be signed to obtain a i~eewopMe-WVdaab~
                                                         account.
                ir Amluai "ComputetSecurity Awarewss"minu?gcomplh~ccis inonitsred
                9 90 day password aging i s imple~elxed

            * Develop a plan to begin addrewing identified security weaknwes for it$ major
                systems.
                k NMAH will Jevebp a POAM hy August 30,2004 to hegin addressing
                  weaknessi~no^ identified irk tlu CIS POA&M.
Appendix C. Management Comments (continued)




                 Smithsonian Institution 	                                                                Memo

                 Office oftheChief I n f ~ m a t i ~Officer
                                                     h




          To; 	 Thomas D. Blair 

                Inspeclor General 


           cc:   Sheila Rutke
                            &
        From:              aw


        Subjer t: Response to the IG's Draft Report on NM AH l~~fortnation
                                                                         Systcrn Controls

                 Thank you for tlv oppc~rtunityta conlnlent an the draft auda report on the NMAH infarmation
                 Sybtem~Controls &view. We agree with the report rmmmendariorrs. However, we disagree
                 with the underlying causesof the weakness identified in tAr draft iG report. We believe that the
                 weakrlesscs have more totto with compliaoce with existing policies, pcedurcs, and ~tandards.
                 Specific comments arc atta&crB,

                 Please call me on 202-633-2800 or Bruce Daniefsan 202-633-W8 if p u have my questions




                 Attachment
Appendix C. Management Comments (continued)




                                                                                                   Attachment

                   Response to Ilraft Audit Report o n NMAH Information System Controls

           Llraft Report: "We belleve NMAH system securityweakriesses dre due to the lack of Institution

           (stafrand budgetary) ~~ecessary
                                                                   -
           snecific technical baseline sonfizuration standards and guidance, as well as to thc lack of resources
                                             to support the Museum tech~~ology  needs. The Institution has not
           issued policies or minimum technical configuration guidance for servers anti databases for most
           versions of Windows operating systenu, web sencr applicationsgnd databases."

           OCIO Comment: The OClO has developed and issued configuration standards and guidance for
           kVindows 2000 servers. At the time of this audit, no other Windows operat~rlgsystem c o m ~ h e d
           with the Sinithsonian's Technical Reference Model (TRM).The configuration guidelines specified
           configuration standards for W~ndows2000 servers and for wveb servers deployed using Microsoft
           [IS. SI does not currently have specific configuration guidelines for web servers using Apache or
           for ddtabase servers. Numerous other guidelines are in place that had they been followed, rvould
           have prevented inany of the weaknesses addressed in the Audit. The Il'Security Controls manual
           ident~fiesa number of controls to he implanented. Among these are Audrting and Loggig
           Procedures (1'1'930-'I'N02); Ilisabling and Deleting dormant Accounts (111930-'TN04j;
           Implementing vendor Software PatcheslFixes (r1'-930-'rN08); Min~rn~zing     Acccss to Production
           Software and Data (IT-930-TN10);and Password Policy CornpUance 'L'estingOT-930-TN12).

           Draft Kcport: "In addttioo, w~thinthe last two years WlAH iufonnat~ontechnology
           administrat~vestaff was reduced and reassigned to the Office ofthe Chief Infor~nationOificer.
           'The staff poation was not replaced, and according to NfAH information technology staff, the
           responsibilit~esfor t h ~ posltlon
                                     s        are still needed to maintain NVlA11 systems up to date and
           coufigurcd correctly."

           OCIO Comment: The draft report leaves the impression that theone individual, FSk,and funds
           for the position were redssigned from NMAH to OCIO, This is not the case. The W A I I
           enlployee filled a vacancy within the OCIO Mtwork Management Division. NMAH management
           chose to redirect the FTEand funds to resolve other priority needs

           Drdft Report: "Also, some of rllesystem weaknesses were known and have not been addressed due
           to budgetary constraints. For example, a security re~nedidtionplan fur the WfAH Collection
           Management Syste~llserver is syecific.diy part ofthe annual security budget request ro the Oftice of
           Managelllent and Budget. The remediation plan outlines the system weakne,ses a11d
           recon~rnendtldrolutions."

           OCIO Comment: NMAH did not ask for an increase in the FY 2006 budget request to address IT
           sccurity for its Collection Illformation System or I'l' operations. Progress toward eliminating
           security weaknesses is reported to OMR through the quarterly and annual reporting requiretl by
           the Federal Information Security Management Act (FISMA) and is not partof the t>MD budger
           submission. Many ofthe weaknesses identified in the audit report were previously identifiedrn the
           NMAH CIS security remediation plan (POABtM) a ~ l dshould have already been corrected. Many
           of the most significant sccurity CLYCS can easily be undertaken and will not require significant
           budgetary allotments.
Appendix C. Management Comments (continued)


      0	        Smithsonian
                Office o f the ChidInfomasjon Qficer
                                                                                                           Memo

                Computu !k&ysaff


         Date   lune7,30Q4




       S#et     IT c o n e m a documents

                OCIO adcnowltdp tbt Big~IAuace6farnGprutian guidebics. We me eunmtlyln theprocessof
                comykhg a sexies oFwnfiguwtiDn guiddinrs for 81 mrietYBf L ~ C N ~and
                                                                                   ~(Laperating sa~tms,We bave
                cunurtly compkted con&~ion guidelinesf~ Win-          2003 m e t , as well Wiidavs 2000 rrvcrs end
                11s. We e p a ro m p k mnfiguratian@idi?her     for
                                                                 u UNXX; SQL %mar; Osach ~ww;       md Apache
                w  f
                   m  by the a& aPt i i year 2W.




                .wmmxfAe4~     m m C l N
                Naturat HismryBulttling &om Wr3
                ltnh SaLt€a?~d ~ m I i m r h nAmuc VW
                Wwhhgpon w low-8lU
                la 357 ?%$Telephone
                ta2 337 4lJS F a
